Office of Inspector General


December 15, 2013

MEMORANDUM

TO:                   USAID/West Bank and Gaza, Mission Director, R. David Harden

FROM:                 Acting Regional Inspector General/Cairo, Emily R. Gardiner /s/

SUBJECT:              Review to Verify Whether Water Pipes and Fittings Purchased by USAID/West
                      Bank and Gaza for the Palestinian Water Authority Were Used as Intended on
                      Approved Mission Projects (Report No. 6-294-14-002-S)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and included them, without attachments, in Appendix II.

The final report includes six recommendations for USAID/West Bank and Gaza. In its comments
on the draft report, USAID/West Bank and Gaza generally agreed with all six recommendations.
Based on our evaluation of the management comments, we acknowledge that the mission
made a management decision on all six recommendations and has taken final action on
Recommendations 1, 2, 5, and 6, which will be closed upon issuance of this report.

Please provide the Office of Audit Performance and Compliance Division with the necessary
documentation to achieve final action on Recommendations 3 and 4.

Thank you for the cooperation and courtesy extended to our team during this review.




U.S. Agency for International Development
USAID Office Building
1/A Nady El-Etisalat St., off El-Laselki St.
New Maadi
Cairo, Egypt
http://oig.usaid.gov
SUMMARY 

In September 2009 USAID/West Bank and Gaza issued two task orders to procure pipes and
fittings worth $17.1 million to use in the USAID-funded Infrastructure Needs Program. The pipes
and fittings were procured to support water distribution improvement projects in the West Bank
and Gaza. The mission hired MWH Global and later Black & Veatch to provide construction
management services for this program.

To support this effort, on May 20, 2010, USAID/West Bank and Gaza and the Palestinian
Authority, acting through the Palestinian Water Authority (PWA), signed a memorandum of
understanding (MOU) in which PWA agreed to “provide secure storage for (pipes and materials)
at its storage yards in the West Bank until such time as USAID or its implementing partners
need them.” These pipes are USAID’s property, intended for use in designated USAID projects.
As of September 2013, PWA and contractor records also show that USAID has 4,048 meters of
pipe at a PWA storage yard, worth approximately $154,379.

On October 28, 2011, USAID transferred ownership of some of the pipes and fittings, worth
$6.2 million, to PWA. USAID did this on the condition that PWA use the materials for 14 projects
specified at the time of the transfer. Each of these projects required prior approval from the
mission for vetting to ensure that no project would benefit municipalities controlled by a
designated terrorist organization. As of September 2013, PWA and contractor records show that
22,377 meters of these transferred pipes, worth $2.9 million, remain at a PWA storage yard.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this review at the request of
USAID/West Bank and Gaza to determine whether the pipes and fittings it purchased for PWA
were used on mission-approved projects. We found that all of the materials PWA used
supported projects to improve the water supply to Palestinians in the West Bank.

However, PWA used USAID-funded pipes worth $2,272,626 at 19 projects that were different
from the 14 projects approved by USAID in October 2011 (page 4). Pipes worth $2.9 million
remain at storage yards awaiting installation, and fittings, worth $1 million, were either used at
the 19 project sites or remain at storage yards awaiting installation.

Furthermore, PWA used materials worth $395,366 for nine projects in the West Bank, which
were not officially transferred and remain the property of the U.S. Government. As a result, the
mission had to vet these projects after the materials were installed and had to purchase
additional pipes for approximately $228,898 to replace the materials used by PWA.

This report contains six recommendations for USAID/West Bank and Gaza.

1. 	 Determine the reasonableness of $2,272,626 associated with materials used at project sites
     that were not approved in advance, and consider whether it is appropriate to recover any
     part of the costs deemed unreasonable (page 6).

2. 	Determine the reasonableness of $395,366 associated with materials used by the
    Palestinian Water Authority in the belief that it owned the materials but that were not
    transferred for its use, and consider whether it is appropriate to recover any part of the costs
    deemed unreasonable (page 6).



                                                                                                  1
3. 	Agree in writing with the Palestinian Water Authority to implement a plan to differentiate
    pipes and fittings owned by USAID and stored in the Palestinian Water Authority’s storage
    yards, and to update the inventory records to reflect USAID ownership (page 6).

4. 	Implement a plan to ensure that the Palestinian Water Authority uses the remaining
    inventory transferred to it at locations mutually agreed upon by USAID and the Palestinian
    Water Authority (page 6).

5. 	 Perform an assessment of the Palestinian Water Authority’s inventory management system
     and provide capacity-building assistance as needed before using its storage yards for future
     projects (page 6).

6. 	Implement control activities to monitor inventory held at the Palestinian Water Authority
    storage yards (page 6).

Detailed results follow, and the scope and methodology appear in Appendix I. Our evaluation of
management comments is included on page 7 in this report, and the full text of management
comments is included in Appendix II.




                                                                                               2
REVIEW RESULTS

Authority Used Pipes at Project Sites
That Were Not Pre-approved
On May 20, 2010, the USAID/West Bank and Gaza mission director signed a MOU with the
Palestinian Authority for the storage of water pipes and other materials at PWA storage yards.
The MOU proposed that PWA “take custody of all pipe and materials needed for such projects
and provide secure storage for them at its storage yards in the West Bank until such time as
USAID or its implementing partners need them to carry out the projects.”

Under this MOU, PWA agreed to maintain accurate, up-to-date inventory and records of all
pipes released to construction contractors or to any other parties identified and authorized by
USAID. While the materials are in PWA’s storage facilities, they are owned by USAID. The
agreement required PWA to obtain USAID’s approval before using the materials in any water
projects. If they are used for purposes other than those agreed upon, the MOU states that “PWA
or such other entity shall, upon USAID’s request and election, return such property or refund in
U.S. dollars the amount disbursed by USAID for such property.”

On October 28, 2011, the mission transferred ownership of pipes and fittings worth $6.2 million
to PWA. USAID made the transfer on the condition that PWA use the materials for 14 projects
specified at the time of the transfer. Afterward, PWA used USAID-funded materials at
19 projects that were different from the 14 projects approved by USAID in October 2011.
Table 1 lists the locations of those 19 projects.

                      Table 1. Locations Where PWA Used Materials 

                 at Project Sites That Were Not Pre-Approved (Unaudited) 

             Location           Pipe Diameter (Inches)    Pipe Length (Meters)      Value ($)
  Jenin/Araba (Sanur)                     4                        36                   1,373
  Hebron                                  4                       286                  10,908
  Ramallah/Naleen                         4                       298                  11,366
  Izbet Salman—Qalqelya                   4                       893                  34,059
  Ramallah                                4                       452                  17,239
  Jenin                                   4                     1,000                  38,140
  Ramallah/Bani Zaid                      4                     1,122                  42,793
  Shyoukh                                 4                        73                   2,784
  North West Jenin                        4                     1,500                  57,210
  General Maintenance                     6                        36                   2,339
  Hebron                                  6                     2,654                 172,430
  Qalqilya/Izbet Salman                   6                       309                  20,076
  North West Jenin                        6                     1,000                  64,970
  Bethlehem (Well PWA #11)                6                        83                   5,393
  Qabatya                                 6                     2,190                 142,284
  Hebron/Al Rehyeh                        6                     3,000                 194,910
  North West Nablus                      12                     3,000                 572,730
  North West Jenin                       12                     4,500                 859,095
  Aqaba Jenin                            12                       118                  22,527
  Total                                                                            $2,272,626



                                                                                                3
Furthermore, on nine other occasions PWA used materials that were not officially transferred for
projects in the West Bank; those materials were worth $395,366. Table 2 lists where they were
used.

                    Table 2. Projects and Locations Where PWA Used Materials 

                           Not Officially Transferred to PWA (Unaudited)

       Location                         Pipe Diameter (Inches)   Pipe Length (Meters)   Value ($)
       Bethlehem/Za’Atarah                        3                           298             8,320
       Rawabi                                     3                         1,785           49,837
       North West Jenin                           3                         2,975           83,062
       Jenin Municipality                         3                           500           13,960
       General Maintenance                        3                           357             9,967
       Sanur—Araba Transmission                   8                            12             1,301
       Hebron/Dura                               10                         1,481          217,885
       Bethlehem                                 10                             4               588
       Sanur—Araba Transmission                  10                            71           10,446
       Total                                                                              $395,366

Several factors contributed to the use of materials in a manner inconsistent with the established
protocol. These factors included incorrect beliefs about who owned the materials and insufficient
inventory controls.

PWA believed the materials were available to use at its discretion for maintenance and line
expansion needs; employees did not realize the materials were designated solely for the project
sites listed at the time of the transfer. In a letter to the mission’s contracting officer’s
representative dated May 2, 2013, the head of the West Bank Water Department (WBWD)1
acknowledged that his team did not obtain USAID’s approval to use pipes in the storage yards
that had not been transferred to PWA because “they had the impression that these pipes belong
to the PWA/WBWD and not to USAID.”

WBWD’s inventory management system did not have sufficient internal controls. The
department maintains PWA’s primary storage yards, and it uses an electronic inventory system
to track pipes and fittings in the yards. However, this system does not differentiate among
materials owned by the mission, provided by other donors, and owned by PWA. According to
the engineers at WBWD, inventory entries include notations to designate which materials were
donated to PWA, but the system does not have information on ownership or whether materials
are set aside for specific projects. As a result, the WBWD inventory system shows inventory
balances but does not alert users that USAID owns certain materials. Furthermore, while some
pipes are marked to designate USAID ownership, there is no clear method to differentiate those
pipes easily from others in the storage yards.

USAID/West Bank and Gaza also did not have sufficient internal controls. Contractors issued
final acceptance certificates to document that they had delivered the materials they had
procured to designated storage yards. After accepting the materials, the mission did not perform
regular inventory inspections and did not instruct the project’s implementer to perform regular
inventory inspections at the PWA storage yards. The current construction management
contractor has performed some informal inventory checks, but not consistently.


1
    This organization is part of PWA.


                                                                                                      4
As a result, PWA used $2,667,992 in pipes and fittings ($2,272,626  in transferred material and
$395,366 in U.S. Government materials) that should have been used on mission-approved
projects. Because PWA used pipes and fittings on projects that were not preapproved, the
mission had to replace materials at an additional cost of $228,898. Finally, because the
locations listed above were not included on the original list of proposed project sites, USAID had
to perform vetting, as required by Executive Order 132242 and Mission Order 213, after the U.S.
Government materials were installed. All the sites passed vetting.

To resolve these problems and to avoid more misunderstandings about the ownership of
materials stored at the PWA facilities, we recommend the following.

    Recommendation 1. We recommend that USAID/West Bank and Gaza determine the
    reasonableness of $2,272,626 associated with materials used at project sites that were
    not approved in advance, and consider whether it is appropriate to recover any part of
    the costs deemed unreasonable.

    Recommendation 2. We recommend that USAID/West Bank and Gaza determine the
    reasonableness of $395,366 associated with materials used by the Palestinian Water
    Authority in the belief that it owned the materials but that were not transferred for its use,
    and consider whether it is appropriate to recover any part of the costs deemed
    unreasonable.

    Recommendation 3. We recommend that USAID/West Bank and Gaza agree in writing
    with the Palestinian Water Authority to implement a plan to differentiate pipes and fittings
    owned by USAID and stored in the Palestinian Water Authority’s storage yards, and to
    update the inventory records to reflect USAID ownership.

    Recommendation 4. We recommend that USAID/West Bank and Gaza implement a
    plan to ensure that the Palestinian Water Authority uses the remaining inventory
    transferred to it at locations mutually agreed upon by USAID and the Palestinian Water
    Authority.

    Recommendation 5. We recommend USAID/West Bank and Gaza perform an
    assessment of the Palestinian Water Authority’s inventory management system and
    provide capacity-building assistance as needed before using its storage yards for future
    projects.

    Recommendation 6. We recommend USAID/West Bank and Gaza implement control
    activities to monitor inventory held at the Palestinian Water Authority storage yards.




2
  See Executive Order 13224 - Blocking Property And Prohibiting Transactions With Persons Who 

Commit, Threaten To Commit, Or Support Terrorism. September 23, 2001.

3
  Mission Order 21 describes procedures to ensure that the mission's assistance program does not 

inadvertently provide support to entities or individuals associated with terrorism. 




                                                                                                     5
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/West Bank and Gaza generally agreed with all
six recommendations. We acknowledge that management decisions were reached on all
recommendations, and final action was taken on Recommendations 1, 2, 5, and 6. A detailed
evaluation of management comments follows.

Recommendation 1. The mission determined that the cost of $2,272,262 associated with
materials used at project sites in the West Bank is reasonable and in line with the purpose of the
MOU with the Palestinian Authority. Therefore, we acknowledge that the mission has made a
management decision and final action has been taken on this recommendation.

Recommendation 2. The mission determined that the cost of $395,366 associated with
materials used at project sites in the West Bank is reasonable and determined that these pipes
were used in accordance with objectives of the MOU. Therefore, we acknowledge that the
mission has made a management decision and final action has been taken on this
recommendation.

Recommendation 3. The mission agreed to implement a plan to differentiate pipes and fittings
owned by USAID and stored in PWA’s storage yards, and to update the inventory records to
reflect USAID ownership. To do so, the mission plans to reach an agreement with PWA by no
later than March 31, 2014. Therefore, we acknowledge that the mission has made a
management decision on this recommendation. Final action will be taken when the mission
completes the written agreement with PWA to implement this plan.

Recommendation 4. The mission agreed to issue an implementation letter to PWA under the
MOU with a plan to ensure that the remaining inventory is used at mutually agreed-upon
locations. The mission plans to issue this letter by December 31, 2013. Therefore, we
acknowledge that the mission has made a management decision on this recommendation. Final
action will be taken when the mission issues this implementation letter to PWA.

Recommendation 5. The mission has decided not to use PWA’s storage yards in the future to
store USAID-owned property. Therefore, we acknowledge that the mission has made a
management decision and final action has been taken on this recommendation.

Recommendation 6. The mission agreed to implement control activities to monitor inventory
held at the Palestinian Water Authority storage yards. On December 5, 2013, the mission
directed its architecture and engineering contractor, Black & Veatch, to perform quarterly checks
starting in January 2014. These checks will monitor the USAID-funded inventory held at PWA
storage yards. Therefore, we acknowledge that the mission has made a management decision
and final action has been taken on this recommendation.




                                                                                                6
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Cairo conducted this review in accordance with the quality standards for inspection and
evaluation issued in 2011 by the Council of the Inspectors General on Integrity and Efficiency.
These standards require that we plan and perform the review to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with the
review objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this review was to verify whether water pipes and fittings that USAID/West Bank
and Gaza purchased for PWA were used as intended on mission-approved projects. In
May 2010 the U.S. Government, acting through USAID, signed a MOU with the Palestinian
Authority, under which PWA was to provide secure storage for pipes and materials at its storage
yards in the West Bank. As of September 2013, PWA and contractor records show that
22,377 meters of these transferred pipes, worth $2.9 million, remain at a PWA storage yard. As
of this date, PWA and contractor records also show that USAID has 4,048 meters of pipe at a
PWA storage yard, worth approximately $154,379. We performed this review from September 2
through October 25, 2013, conducting fieldwork at the USAID/West Bank and Gaza office in Tel
Aviv, PWA offices in Ramallah, storage yards located in Nablus and Hebron, and the
construction management contractor’s office in Ramallah.

As part of the review, we assessed the internal controls USAID/West Bank and Gaza has in
place over pipes and fittings purchased for use in the West Bank. Those reviewed included but
were not limited to inventory management, site inspections, and location verification for pipes
and fittings transferred to PWA.

Methodology
To answer the review objective, we interviewed officials from USAID/West Bank and Gaza,
PWA, and the mission’s construction management contractor. We reviewed and analyzed
relevant documents and data at the mission, government offices, and the contractor’s office.
Documents reviewed included portions of the Automated Directive System, contract task orders,
the MOU, and inventory records maintained by PWA.

We visited two PWA storage yards in the West Bank and observed security controls at these
sites. We then selected a judgmental sample of seven locations where PWA used USAID-
funded materials, traced from the disposition agreement to the PWA inventory records, and
ultimately to documentation supporting the installation of pipes and materials at sites in the
West Bank. Because of the difficulty in verifying pipes and fittings installed underground, the
team relied on documentation maintained by PWA for location verification. Since we did not use
a statistical sample, the results of our tests cannot be projected to the population from which
they were drawn.




                                                                                             7
                                                                                      Appendix II



MANAGEMENT COMMENTS 



UNCLASSIFIED


Date:          December 9, 2013

To:            Regional Inspector General, Cairo, Catherine Trujillo

From:          Mission Director, USAID West Bank and Gaza, R. David Harden /s/

Subject:       Mission’s Comments on the Draft Review Report to Verify Whether Water Pipes
               and Fittings Purchased by USAID/West Bank and Gaza for the Palestinian Water
               Authority Were Used as Intended on Approved Mission Projects

               Draft Review Report No. 2-294-14-00X-S dated November 8, 2013

Reference:     Trujillo/Harden memorandum dated November 8, 2013


USAID West Bank and Gaza thanks the Regional Inspector General/Cairo for conducting this
review at the Mission’s request. The Mission appreciates this opportunity to comment on the
draft review report and the six recommendations therein as the RIG prepares the final report.
The following are the Mission’s comments on each of the six recommendations.

Recommendation No. 1:

We recommend that USAID/West Bank and Gaza determine the reasonableness of $2,272,626
associated with materials used at project sites that were not approved in advance, and consider
whether it is appropriate to recover any part of the costs deemed unallowable.

Response:

The Mission has determined that the cost of $2,272,626 associated with materials used at the
project sites is reasonable and in line with the purpose of the Memorandum of Understanding
(MOU) between USAID and the Palestinian Authority (acting through the Palestinian Water
Authority (PWA)), dated May 20, 2010. This MOU sets out the objectives of cooperation
between USAID and the PWA. The MOU states that the central objective of USAID’s assistance
to the PWA is to provide clean drinking water and sanitation services to the Palestinian people.
In coordination with the RIG review (as described further in the methodology section of the
report), the Mission has reviewed the use of the materials in each project and has determined that



                                                                                                  8
each project has value and is within the intent of the MOU – even though the materials were
installed at project sites not approved in advance by USAID. In addition, the Mission has vetted
these implementation sites to ensure that each passed stringent vetting requirements to protect
against potential mis-direction to prohibited entities under anti-terrorist financing rules.
Therefore, the Mission requests that this recommendation be closed upon issuance of the final
report.

Recommendation No. 2:

We recommend that USAID/West Bank and Gaza determine the reasonableness of $395,366
associated with materials used by the Palestinian Water Authority in the belief that it owned the
materials but that were not transferred for its use, and consider whether it is appropriate to
recover any part of the costs deemed unreasonable.

Response:

The Mission has determined that the cost of $395,366 associated with materials used at the
project sites is reasonable. After a thorough review, the Mission has determined that these pipes
were used in accordance with objectives of the MOU. The Mission has also vetted these
implementation sites to ensure that each passed stringent vetting requirements to protect against
potential mis-direction to prohibited entities under anti-terrorist financing rules. Therefore, the
Mission requests that this recommendation be closed upon issuance of the final report.

Recommendation No. 3:

We recommend that USAID/West Bank and Gaza agree in writing with the Palestinian Water
Authority to implement a plan to differentiate pipes and fittings owned by USAID and stored in
the Palestinian Water Authority’s storage yards, and to update the inventory records to reflect
USAID ownership.

Response:

The Mission agrees with the RIG’s recommendation. By no later than March 31, 2014 the
Mission will agree in writing with the PWA to implement a plan to differentiate the pipes and
fittings owned by USAID and stored in PWA storage yards, and to update the PWA’s inventory
records to reflect USAID ownership.

Recommendation No. 4:

We recommend that USAID/West Bank and Gaza implement a plan to ensure that the Palestinian
Water Authority uses the remaining inventory transferred to it at locations mutually agreed upon
by USAID and the Palestinian Water Authority.

Response:




                                                                                                      9
By December 31, 2013, the Mission will issue an implementation letter to the PWA under the
MOU with a plan to ensure that the remaining inventory is used at mutually agreed upon
locations.

Recommendation No. 5:

We recommend USAID/West Bank and Gaza perform an assessment of the Palestinian Water
Authority’s inventory management system and provide capacity-building assistance, as needed,
before using its storage yards for future projects.

Response:

The Mission requests that the RIG close this recommendation upon issuance because the Mission
has decided not to use the PWA’s storage yards in the future to store USAID-owned property.

Recommendation No. 6:

We recommend USAID/West Bank and Gaza implement control activities to monitor inventory
held at the Palestinian Water Authority storage yards.

Response:

The Mission agrees with the RIG’s recommendation. On December 5, 2013, the Mission directed
the Mission’s architecture and engineering contractor, Black & Veatch, to perform quarterly
checks starting January 2014 to monitor the USAID-funded inventory held at PWA storage
yards. The email is attached to this management response and therefore the Mission requests that
this recommendation be closed upon issuance of the final review.




                                                                                             10
